                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

11   Case Number: A08040020
                                                                                 11           Page 1 of 1



          We received an allegation that an individual1 named as senior personnel in a collaborative pre-
          proposal submission2had not consented to be listed in the proposal. The issue became magnified
          because the NSF request for proposals3 restricts individuals to participating in one pre-proposal and
          the individual was also listed as a co-PI on another submission.

          We contacted the PI^ of the proposal, who explained that the individual had been a prior
          collaborator on a proposal submitted (with everyone's consent) to another Federal agency. That
          agency declined the proposal just prior to the NSF submission deadline. The declined proposal
          was repackaged and submitted to NSF, but the PIS did not notice the personnel restriction. A
          close letter with an admonition to obtain collaborator's consent before including them on an NSF
          proposal was sent to the PI.

          Accordingly, this case is closed.




               NSF 07-581.
           4




 NSF OIG Form 2 (1 1/02)
